HHS/OIG, Audit -"Review of Nursing Facility Staffing Requirements at Emily P. Bissell Hospital,"(A-03-03-00223)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Nursing Facility Staffing Requirements at Emily P. Bissell Hospital," (A-03-03-00223)
August 31, 2004
Complete Text of Report is available in PDF format (375 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Emily P. Bissell Hospital was in compliance with Federal and State staffing laws and regulations for nursing homes.  Based on our review of 103 direct care employees, Bissell complied with Federal staffing laws and regulations that we reviewed, but did not comply with State drug testing and background check requirements for 15 direct care employees.  We recommend that Bissell restrict the employees whose drug tests and background checks are not complete from working directly with the residents until the results are received and found to be in compliance with State requirements.  We also recommended that Bissell review and strengthen its internal controls to assure that it (1) completes the required drug tests and background checks on all new direct care employees, and (2) prohibits employees from working directly with residents if their drug test results are not received within the required timeframes.